No.

IN THE

SUPREME COURT OF THE UNITED STATES

DALE CHESTER HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd.
Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com
COUNSEL FOR THE PETITIONER

A. QUESTION PRESENTED FOR REVIEW
Whether – in a case involving a racketeering charge based on predicate incidents
for “dealing in stolen property” – possession of an item that is one or more transactions
removed from an alleged theft constitutes possession of stolen property (and if not,
whether such a conviction violates the Due Process Clause of the United States
Constitution).

ii

B. PARTIES INVOLVED
The parties involved are identified in the style of the case.

iii

C. TABLE OF CONTENTS AND TABLE OF AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

B.

PARTIES INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

C.

TABLE OF CONTENTS AND TABLE OF AUTHORITIES . . . . . . . . . . . . . . iv
1.

Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

2.

Table of Cited Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

D.

CITATION TO OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISION INVOLVED . . . . . . . . . . . . . . . . . . . . . . . 1

G.

STATEMENT OF THE CASE AND STATEMENT OF THE FACTS . . . . . . 2

H.

REASON FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
The question presented is important . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

J.

APPENDIX

iv

2.

TABLE OF CITED AUTHORITIES

a.

Cases

Holcombe v. State, 293 So. 3d 1036 (Fla. 5th DCA 2019). . . . . . . . . . . . . . . . . . . . . . .1
In re Winship, 397 U.S. 358 (1970).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1, 10
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
People v. Gbohou, 718 N.Y.S.2d 791 (NY. Sup. Ct. 2000) . . . . . . . . . . . . . . . . . . . . 12
State v. Graham, 327 P.3d 717 (Wash. Ct. App. 2014). . . . . . . . . . . . . . . . . . . . . 10-12

b.

Statutes

§ 812.012(7), Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
§ 812.019(1), Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RCW 9A.82.010(16) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

c.

Other Authority

U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 10
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 10

v

The Petitioner, DALE CHESTER HOLCOMBE, requests the Court to issue a
writ of certiorari to review the opinion/judgment of the Florida Fifth District Court of
Appeal entered in this case on March 24, 2020 (rehearing denied on April 24, 2020).
(A-3, A-4).1

D. CITATION TO ORDER BELOW
Holcombe v. State, 293 So. 3d 1036 (Fla. 5th DCA 2019).

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant to 28 U.S.C. § 1257 to review
the final judgment of the Florida Fifth District Court of Appeal.2

F. CONSTITUTIONAL PROVISION INVOLVED
The Due Process Clause of United States Constitution requires the prosecution
to prove guilt beyond a reasonable doubt. See U.S. Const. amends. V and XIV; In re
Winship, 397 U.S. 358, 361 (1970).

1

References to the appendix to this petition will be made by the designation “A”
followed by the appropriate page number. References to the trial transcripts will be
made by the designation “T” followed by the appropriate page number.
2

Because the state appellate court did not issue a written opinion, the Petitioner
was not entitled to seek review in the Florida Supreme Court. See Jenkins v. State,
385 So. 2d 1356, 1359 (Fla. 1980).
1

G. STATEMENT OF THE CASE AND STATEMENT OF THE FACTS
1.

Statement of the case.

The Petitioner was charged in Florida state court with racketeering and
conspiracy to commit racketeering. The case proceeded to a jury trial in August of
2018. During the trial, the state trial court denied the Petitioner’s motion for a
judgment of acquittal,3 and at the conclusion of the trial, the jury found the Petitioner
guilty as charged. The trial court subsequently sentenced the Petitioner to 55.5
months’ imprisonment. (A-5). The Florida Fifth District Court of Appeal subsequently
per curiam affirmed the Petitioner’s convictions without discussion. (A-3).
2.

Statement of the facts.

The statement of facts, as set forth in the brief filed by the Petitioner’s appellate
counsel in the state appellate court below, are as follows:
The Business, a licensed secondhand dealership purchasing gift
cards and reselling them online, (T. 49-50, 56-57, 463) was owned by
James Holcombe, who was the “boss” and a silent partner, David Lee. (T.
138, 460, 469) Originally, Dale Holcombe owned a similar business, Cash
for Cards located in Deltona, but it was taken over by his son, James,
when it was clear Dale did not have the capacity to manage the business.
(T. 62-63, 362, 462) For the most part, James Holcombe and his father
were an absentee owners – they were not involved in the day to day
operations, did not interact with or do transactions with customers. (T.
339-340, 377-378, 426) The employees managed the day-to-day
operations. (T. 138) Dale Holcombe, suffering from a brain tumor, had
to have surgery to remove the tumor and (T. 495) after the surgery, his
personality and mental capacity changed and he had cognitive limitations
which precluded him from running a business. (T. 495) So, Dale worked

3

When the state trial court denied the motion for a judgment of acquittal, the
court stated: “The record should reflect the judge is reluctantly denying your motion
for judgment of acquittal on everything.” (T. 973).
2

as a “gopher,” he would bring the employees water, run errands for the
employees, and would transport money between stores. (T. 408, 462-463,
496)
A second-hand dealership is like a pawn shop in that it is a heavy
regulated business: for each transaction, the seller must complete a
secondhand dealer pawn “slip” and provide a valid ID, phone number,
address, and thumbprint. (T. 64, 338, 427, 498, 525, 558, 657, 762, 815,
912); the seller must sign a document that they have authority to sell the
property (T. 64, 338, 428, 816); paperwork must be submitted daily to the
sheriffs office including the buyer or seller’s name, phone number,
address and description of what is being sold, including serial number. (T.
51, 380, 427); and following a purchase, there is a 15 day hold on
property. (T. 63) In addition to the State requirements, the Business kept
track of business details and customer records on a Google Drive,
including which individuals were banned or preferred. (T. 147, 337) The
file was backed up on a Google Cloud so every computer from the
Business had access to the file and every location and employee could
access the customer file. (T. 112)
A preferred customer is a trusted customer who sold a lot of cards
to the Business. (T. 100, 415) Preferred customers were given better
prices as incentives for cards that they brought in. (T. 284) The Business
also would price match competitor’s rates, let customers know there were
no limits on how many cards could be exchanged, and that the Business
bought almost every major gift card. (T. 445, 446)
As a security measure, sometimes the Business would transfer the
value stored on card after purchasing it to prevent a dishonest customer
from quickly using the value again online or otherwise defrauding the
Business. (T. 285, 387) The employees based this decision on the client
or notation in customer notes. (T. 286) The Business kept the original
physical card in their possession. (T. 370) Sometimes the Business
banned customers. Customers were banned if the gift cards they sold
were obtained through illegal means or if there were other problems with
the transactions. (T. 508) James Holcombe had the ultimate authority to
decide which customers were banned. (T. 399)
There were four employees that testified at trial: Ronald Paul
Carponella, Michael Welch, William Hooper, and Matt Angell. Each one
was convicted of dealing in stolen property in connection with this case.
(T. 268, 360, 407, 459) Some of the employees had suspicions that the gift
cards were obtained through illegal activity. (T. 357, 377, 470) James
Holcombe trusted and relied on the employees to use their own judgment
to turn away illegal activity. (T. 300, 352, 395, 384, 417, 453, 505) James
Holcombe instructed the employees to refuse to buy gift cards derived
from stolen property. (T. 300, 384, 417, 455, 500, 505) There were
3

occasions where the employees did just that. (T. 315)
At trial, the employees testified James Holcombe instructed
employees not to ask questions to the customers about how they obtained
the gift cards. (T. 455) The customers testified the employees did not ask
questions about the returns. (T. 670) James Holcombe never overtly
instructed his employees to turn a blind eye to illegal activity. (T. 383,
500) All the employees testified if they knew the gift cards were stolen,
they would refuse the transaction. (T. 324, 395, 417, 453, 499)
According to the trial testimony of cooperating witnesses, at one
business meeting, James Holcombe told the employees if they were
arrested in connection with the Business, he would bail them out and hire
a lawyer to represent them. (T. 288, 372, 418, 475) James Holcombe did
not discuss what type of trouble he was referring to, although some
employees knew Dale Holcombe had been in trouble for making a mistake
in connection with the secondhand dealer’s license. (T. 327) Some
employees knew you could get in trouble for failing to comply with the
secondhand pawn forms. (T. 501) According to Matt Angell, the
employees did not think James was offering the employees an attorney
to cover for crimes being committed. (T. 502) James Holcombe explained
the Business legality to Carponella and Hooper as being legal (T. 278)
because the gift cards were not stolen, they were issued by the stores. (T.
278-279, 292, 419) When the store issues the gift cards, they were
verifying and agreeing the returned items are not stolen. (T. 278-279,
292, 419)
In 2014, Investigator Jayson Paul began investigating shoplifters
that would steal and then return merchandise to big box stores (large
commercial retailers) in exchange for gift cards and later would sell the
cards to the Business and other stores like it. Paul learned that
“Boosters” would steal items from retail stores and then give them to
another individual, anyone with an ID (sometimes a homeless
individual), who would return the stolen item for gift card with store
credit. (T. 66, 67, 100, 282) The crew repeated the process at different
big box stores and would eventually sell the gift cards to the Business or
one of its competitors. (T. 66) The big box stores knew they were being
victimized and continued to issue gift cards. (T. 130-131)
As a general policy, loss prevention officers at big box stores would
drain gift cards, after issuing them, if they determined they were
suspicious about the customer. (T. 111) The Home Depot Corporate
Investigator explained Home Depot’s return process. (T. 717-719) If the
clerk is suspicious about a return, the clerk must still do the return. (T.
719) The clerk does not have the authority to refuse a return. (T. 726)
The clerk’s job is to take care of the customer; it is not to determine
whether the customer is doing something wrong. (T. 735) Home Depot
4

has no limitation on how many returns customers can do without a
receipt. (T. 725) If the customer does not have a receipt, the transaction
will go through and the customer will be given merchandise credit. (T.
720). If the clerk is suspicious, they will notify other personnel and it will
go up the chain of command, and it will eventually get to the Home Depot
Corporate Investigator. (T. 720) The HDCT sets up an alert that for
when the customer’s ID is used for a return. (T. 720)
Paul testified that although there were other businesses that
purchased gift cards, the Business caught his attention because it was
handling more business than other shops that bought gift cards. (T.
48-50, 57, 62-63)
It was never in dispute that the gift cards themselves were not
stolen. (T. 122-123, 349). Rather, the card value was derived from the
value of returned stolen goods. (T. 157, 349) Law enforcement never
observed Dale or James Holcombe ride around with the boosters or do a
return transaction at any store. (T. 133, 136) Law enforcement saw Dale
take several small gift cards to buy a larger gift card. (T. 134)
In addition to looking into the Business, law enforcement
investigated the individuals that sold a significant amount of gift cards
to the Business. (T. 64) All were addicted to drugs (T. 512-514, 583, 647,
775, 794-796, 821, 824, 883, 903) As a result of the investigation, some
of the customers were convicted of racketeering and conspiracy to commit
racketeering because they ran organized theft rings that stole and
returned items for gift cards. (T. 522, 578, 646, 744, 793, 821) Two such
customers, Bello and Rodriguez, were not charged and were given
immunity for their testimony. (T. 879, 896)
Finally, law enforcement contacted the Business. (T. 151) At no
time did law enforcement send official correspondence directing the
Business to stop buying cards from individuals suspected of stealing to
obtain gift cards. (T. 150). Paul first spoke with an employee and asked
whether the Business had a protocol for blacklisting sellers. Welch
explained they blacklisted sellers whose gift cards were derived from
stolen property. (T. 81)
Paul told Welch that Amanda Rodriquez and Patrick Bello were
stealing merchandise to obtain gift cards. (T. 69, 149, 923) Welch told
Paul he would pass the information to his boss, James Holcombe. (T. 81)
The Business continued to buy gift cards from Rodriquez and Bello. (T.
84-86) Paul made this determination through the pawn shop database
which showed entries with their names associated with the Business. (T.
924)
Ultimately, Paul used the database printouts to testify about 24
gift cards at issue (the printouts were not placed into evidence) Eight of
the gift card transactions involved cards donated to law enforcement to
5

be sold to the Business. (T. 935, 938) The other sixteen cards were “sold”
by Amanda Rodriguez and Patrick Bello from Walmart, Lowe’s, and
Home Depot. (T. 925-935, 938) In furtherance of the investigation,
Officer Patterson, working undercover as an “average looking guy,” sold
gift cards to the Business ten times and attempted to record each
transaction, although the first three transactions were not recorded due
to technical difficulty. (T. 165-166, 171) The relevant calls, which were
played at trial, are summarized below:
1.
June 29, 2015: Pawned a $95 gift card for $48. (T. 175)
2.
July 2, 2015: Patterson pawned a $84 gift card for $46. (T.
176)
3.
July 7, 2015: Peterson pawned a $85.05 gift card for $47. (T.
176) He did remember which employee he spoke to. (T. 177, 183)
4.
July 9, 2015: Patterson pawned a $74.87 Home Depot gift
card. (T. 177) Patterson had to be wait an hour to be paid so the
employee could check the balance. (T. 198) The employee explained that
multiple gift cards from Home Depot had been devalued. (T. 198)
5.
July 15, 2015: Pawned a $63 JCPenny gift card for $32. (T.
189, 230)
6.
July 24, 2015: Patterson pawned a $84.53 Horne Depot gift
card with Hooper. (T. 191) During this exchange, Patterson indicated
that sometimes his buddies and him have good days. (T. 192) Hooper told
Patterson there was no limit for exchanging cards. (T. 190-191)
7.
August 4, 2015: Patterson pawned a $105.93 Home Depot
gift card with Paul Ronald Carpenella. (T. 198- 200) Patterson told
Carpenella the drill was from Lowe’s but he returned it to a different
store. (T. 200, 234). He did not say he stole the drill. (T. 235) He left it to
inference that the drill was stolen from Lowe’s and returned to a different
store so that way the item could not be tracked. (T. 235)
8.
August 6, 2015: Patterson pawned a $34.54 JCPenny gift
card with Paul Ronald Carpenella. (T. 205)
9.
Second Transaction on August 6, 2015: Patterson pawned
a Home Depot gift card with Ronald Carpenella. (T. 202) While in the
Business, Paul spoke on the phone with Sergeant Smith who pretended
to discuss stealing a water filter. The undercover officer said out loud
“who the fuck steals a water filter.” (T. 203, 238)
Paul noticed Carpenella looked up at him at the end of the
conversation and told him to get off the phone. (T. 203) Carpenella could
not hear the person on the phone indicating he stole a water filter and it
could have been the profanity that made the employee look up. (T. 204,
239)
Carpenella recalled the conversation where Paul spoke about water
filters on the phone after watching the tape. (T. 292) He did not recall
6

anything suspicious taking place in the store because he did not pay
attention to the customers whenever they spoke. (T. 292, 325) Although
sometimes he would get input from James Holcombe on whether he
suspected someone obtained gift cards derived from stolen property, he
did not tell James Holcombe about the water filters. (T. 324) Had the
customer told Carpenella he stole the drill and returned it; he would have
refused the transaction. (T. 3 24)
10.
August 28, 2015: Patterson pawned a Home Depot card
with William James Hooper. (T. 209) Patterson told Hooper that him and
his buddy “get a bunch of stuff from Lowe’s and stuff. We get drills, we
get circuit breakers. If you got a good ID card, you could come with us
and help exchange it.” (T. 208) Hooper completed the exchange and
responded that “we can’t deal with stolen goods” and declines the offer.
(T. 210, 234) Hooper testified that he did not remember the undercover
officer saying the drills were stolen. He was unsure if the person was
breaking the law or not and never notified James Holcombe about the
incident. (T. 439)
11.
Second Transaction August 28, 2015: Patterson pawned a
$79 JCPenny gift card with William James Hooper. (T. 213-214)
12.
September 3, 2015: Patterson pawned a $106.40 Lowe’s gift.
(T. 218) The undercover officer asked if he could come back “as many
times a day” and the employee said “yes.” (T. 216)
13.
Second Transaction September 3, 2015: Patterson pawned
a Target gift card. (T. 221) There were several employees in the store
during this exchange. Angel told Paul, “you’re killing it today.” Then
Patterson explained that he walks in and out of Target, no one paying
attention, and does a return, no one cares. (T. 221, 247) In response,
James Holcombe stood up said “we don’t talk about that in here” and he
asked Paul if he was doing anything illegal. (T. 249) Paul denied doing
anything illegal. (T. 222, 249)
Another prolific “booster” Peter Laplaca worked with his wife,
Denise Laplaca, and Brian Miller. (T. 92, 516, 583) Laplaca usually was
the one who took the cards to the Business. (T. 525, 585) Sometimes,
Brian Miller would accompany Laplaca inside the store. (T. 588) On one
occasion, Miller tried to do a transaction with Dale Holcombe, but he
turned him away. (T. 605-606, 612) When Miller came in, Dale looked up
his ID, couldn’t find him in the Google Drive and refused to do the
transaction. (T. 606) During another transaction, one of the cards they
sold to the Business had zero balance. Miller told Laplaca they could
return to Lowe’s. (T. 596) Miller testified Matt Angell responded, “Don’t
talk about that stuff while you’re in here or you’re not doing business
anymore.” (T. 596)
Laplaca testified that he told at least two employees, William
7

Hooper and Matt Angell, that the gift cards were derived from stolen
property. (T. 530) He never told this to Dale or James Holcombe. (T. 548)
On one occasion, Hooper asked Laplaca how much he paid returners,
Laplaca told him ten percent of the cards. (T. 536) Angell asked Laplaca
how he avoided lost prevention at Target. (T. 537) Laplaca told Angell
how he did it. (T. 537) On August 2015, the employees told Laplaca that
he was banned and could no longer sell gift cards to the Business. (T. 533,
594). Laplaca instructed Miller to go inside and sell the gift cards to the
Business. (T. 533, 593) When Miller first sold gift cards, he did not get
the same percentage for the card as Laplaca. (T. 558) Laplaca made a
phone call and sent Miller back into the store to get the higher
percentage. (T. 559-594) Laplaca instructed Miller not to mention
Laplaca’s name or he would not be able to sell the cards to the Business.
(T. 620) As a result, Miller received a higher percentage authorized by
James Holcombe. (T. 559-565, 617) Defense counsel objected to this
statement as inadmissible hearsay.
On August 31, 2015, Paul contacted Dale Holcombe and told him
Peter Laplaca was stealing items and using stolen property to obtain gift
cards. (T. 92- 93) The officer asked Holcombe what happens to the gift
cards. (T. 96) Dale Holcombe told the officer “My son takes care of that.
I have no business in it. You’ll have to talk to him about it.” (T. 96) In
the customer notes under Pete Laplaca, the file noted that an investigator
came into the Business and that they could “no longer sell cards for us
and to tell him to have someone else sell them for him.” (T. 160-161) The
author of this note is unknown. (T. 161) After the August 31 meeting,
the Business stopped buying cards from Laplaca but continued to buy gift
cards from Brian Miller. (T. 97, 154) The officer considered Brian Miller
as part of the same group as Laplaca. (T. 97)
Similar to Laplaca’s crew, Connor’s crew stole merchandise from
stores, returned for gift cards, and then sold the gift cards to the
Business. (T. 97-99) Cooley began noticing certain stores would devalue
the card. (T. 807) Cooley told one of the employees to run that card
quicker to make sure it was not devalued. (T. 807) Hooper’s response was
that “[I]’ll check them.” (T. 807, 813) On one occasion, James Holcombe
told Connor that the Kohl’s card sold to the Business the day before had
zero balance. (T. 838) James told Connor to not let it happen again or
they would not purchase his cards. (T. 838) Connor said James said the
card had zero balance was because Kohl’s knew it was derived from stolen
property. (T. 839)
On another occasion, Connor testified he told Hooper, without
being prompted in anyway, that he was stealing merchandise. (T. 847)
Connor testified Hooper did not respond, he was just talking, but he did
not remember what he said. (T. 847, 850-851) At a different time, Connor
8

testified he told James Holcombe the gift cards were derived from stolen
merchandise. (T. 851) James responded by telling Connor that the more
Home Depot cards he sold, the higher percentage he would be paid. (T.
853) Cooley never interacted with Dale Holcombe. (T. 805-806, 811)
At trial, other individual boosters testified. Dawn Campbell sold
gift cards to the Business because she thought they were legitimate and
not doing anything illegal. (T. 699) Campbell sold gift cards to Dale
Holcombe. (T. 656, 658, 700) She never discussed the gift cards were
derived from stolen property to the employees. (T. 696) Nicole Hanrahan
worked with Erica Johnson, Billy Kennerson and Mia Davis. She never
met Dale Holcombe. (T. 776) On one occasion, Hanrahan said William
Hooper laughed at a conversation where she described being
“manhandled” by a Bealls security person. (T. 764) She testified she told
William and Matt that she stole items. (T. 779) Patrick Bello sold gift
cards to the Business derived from stolen merchandise. (T. 881). Bello
did not know either Holcombe and could not identify them. (T. 891)
Amanda Rodriguez sold gift cards to the Business derived from stolen
merchandise. (T. 898) Rodriguez’ role was to sell the gift cards because
she received a high percentage. (T. 899) She did not know who James or
Dale Holcombe was. (T. 908) Rodriguez testified she told the employees
the gift cards were derived from stolen property and they bought the gift
card anyway. (T. 915)

9

H. REASON FOR GRANTING THE WRIT
The question presented is important.
The question presented in this case is:
Whether – in a case involving a racketeering charge based on predicate
incidents for “dealing in stolen property” – possession of an item that is
one or more transactions removed from an alleged theft constitutes
possession of stolen property.
The Due Process Clause of the Constitution requires the State to prove guilt beyond
a reasonable doubt. See U.S. Const. amends. V & XIV; In re Winship, 397 U.S. 358,
361 (1970). For the reasons set forth below, the Petitioner requests the Court to grant
review in this case and address the question presented.
The Petitioner was charged with racketeering and conspiracy to commit
racketeering, and both counts alleged that the predicate incidents for these offenses
was “dealing in stolen property (fencing).” In order to prove that the Petitioner was
guilty of dealing in stolen property, the prosecution had to prove that the Petitioner
trafficked in or endeavored to traffic in property that he knew or should have known
was stolen. See § 812.019(1), Fla. Stat. “Stolen property” means “property that has
been the subject of any criminally wrongful taking.” § 812.012(7), Fla. Stat.
The prosecution’s evidence at trial established that the gift cards themselves
were not stolen property – rather the prosecution argued it was the “face value” that
was stolen. However, this was contrary to the charging document – which alleged the
gift cards themselves were the stolen goods.
In support of his argument, the Petitioner relies on State v. Graham, 327 P.3d
717 (Wash. Ct. App. 2014), where a Washington appellate court addressed a similar
10

scenario. The facts of Graham were as follows:
Ms. Graham entered the Ephrata Walmart store with an empty
shopping cart and placed two television wall mount kits and a battery for
a motorized toy-vehicle in her cart. She then took the less expensive of
the wall mount kits and the battery to customer service and asked to
return them, claiming to have recently purchased them. Because she did
not have a receipt, Walmart issued a gift card to Ms. Graham for the
value of the returned items. Ms. Graham used this gift card to purchase
the more expensive of the wall mount kits, which she returned to the
store the next day in exchange for approximately $100 in cash.
Id. at 717-718. Ms. Graham was subsequently charged with trafficking in stolen
property and the trial court granted her motion to dismiss – concluding that “there was
no transfer or disposition of stolen property because [t]he first transaction . . . consisted
only of theft of a gift card by deception. . . . The second transaction . . . consisted only
of use (‘negotiation’) of that property in its intended manner; using the gift card as
cash.” Id. at 718 (alterations in the original) (quotations to the record omitted). On
appeal, the Washington appellate court affirmed the trial court’s dismissal, stating:
Turning to the second segment of the overall transaction – Ms.
Graham’s return, for cash, of the mount kit purchased with the gift card
– the issue is whether that second kit was “stolen property” that she
trafficked by returning it. “Stolen property” is defined, again, as
“property that is obtained by theft, robbery, or extortion.” RCW
9A.82.010(16).
....
In order for Ms. Graham’s second return of a wall mount kit to fall
within the statutory definition, we would have to read the definition of
“stolen property” to include not only property that is itself stolen, but also
property that was acquired in a legitimate exchange but can be traced back
through a series of exchanges to property that was obtained by theft,
robbery or extortion. The plain language of the statutory definition of
“stolen property” does not support such a reading nor could the
legislature possibly have intended it.
Viewing the evidence and reasonable inferences therefrom in the
light most favorable to the State, Ms. Graham did not sell or transfer
11

stolen property to another person. The trial court properly dismissed the
second degree trafficking in stolen property charge.
Id. at 719-720 (emphasis added).
The facts of Graham are analogous to the facts in the instant case. As explained
by the Graham court, to hold otherwise would mean that illegally obtained cash would
forever be tainted (and anyone who subsequently accepts the cash would be guilty of
a crime).
The Petitioner also relies on the decision of the New York trial court in People
v. Gbohou, 718 N.Y.S.2d 791 (NY. Sup. Ct. 2000). In that case, the court considered
whether possession of an item that is one or more transactions removed from an
alleged theft constitutes possession of stolen property and the court stated:
This court has found no authority for the proposition that the possessor
of merchandise purchased by another with stolen money is him/herself in
possession of stolen property even if the possessor knows that the
purchasing funds have been stolen. Accordingly, in this court’s view of
the law, neither defendant’s possession of the household furnishings,
vehicle, or other merchandise purchased with money alleged to have been
stolen from the Davies constitutes possession of stolen property.
Id. at 797.
In the instant case, the gift cards’ face value may have been derived from
fraudulent returns, but the cards were issued by the various retail stores. There is no
dispute in the record that the gift cards in question were not stolen. Thus, as a matter
of fact and law, there was no dealing in stolen property in this case – even if the cards’
“face value” were based on illegal returns. If the holdings in Graham and Gbohou are
adopted and applied to this case, then it would be a violation of the Petitioner’s

12

constitutional due process rights to sustain his convictions.
By granting the petition for writ of certiorari in the instant case, the Court will
have the opportunity to consider this important question.

13

I. CONCLUSION
The Petitioner requests the Court to grant the petition for writ of certiorari.
Respectfully Submitted,
/s/ Crytal McBee Frusciante
CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd.
Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com
COUNSEL FOR THE PETITIONER

14

